APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Opinion in the Court of
Criminal Appeals of the State of
Oklahoma
(August 29, 2019) . . . . . . . . . . . . . App. 1

App. 1

APPENDIX A
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
Case No. F-2018-294
[Filed August 29, 2019]
_____________________________
ALEN DEAN O’BRYANT,
)
)
Appellant,
)
)
v.
)
)
THE STATE OF OKLAHOMA, )
)
Appellee.
)
_____________________________ )
NOT FOR PUBLICATION
SUMMARY OPINION
LEWIS, PRESIDING JUDGE:
Alen Dean O’Bryant, Appellant, was tried by jury
and found guilty of Counts 1-4, sexual abuse of a child,
in violation of 21 O.S.Supp.2014, § 843.5, in the
District Court of Oklahoma County, Case No.
CF-2015-7659. The jury sentenced Appellant to life
imprisonment and a $500.00 fine on each count. The
Honorable Timothy R. Henderson, District Judge,
pronounced judgment and sentence accordingly and

App. 2
ordered the sentences served consecutively with credit
for time served.1 Mr. O’Bryant appeals in the following
propositions of error:
1. Mr. O’Bryant was denied effective assistance of
counsel in violation of his federal and state
constitutional rights;
2. The trial court erred by admitting hearsay;
3. The trial court erred by admitting testimony
that bolstered witness credibility;
4. The prosecution improperly vouched for witness
and called Mr. O’Bryant a liar;
5. The child hearsay statute is unconstitutional;
6. The cumulative errors warrant a new trial.
Appellant argues in Proposition One that he was
denied the effective assistance of counsel and has filed
a motion for an evidentiary hearing in connection with
this claim. See Rule 3.11(B)(3)(b), Rules of the
Oklahoma Court of Criminal Appeals, 22
O.S.Supp.2018, Ch. 18, App.
This Court reviews this claim to determine whether
counsel’s performance was unreasonably deficient
under prevailing professional norms; and, if so,
whether that performance deprived Appellant of a fair
trial with a reliable result. Strickland v. Washington,
466 U.S. 668, 687, 104 S.Ct. 2052, 2064, 80 L.Ed.2d 674
(1984). We review Appellant’s accompanying motion for
1

Appellant must serve 85% of his sentence before being eligible for
consideration for parole. 21 O.S.Supp.2015, § 13.1(14).

App. 3
evidentiary hearing, the attached affidavits, and
extra-record evidence to determine whether Appellant
has provided sufficient information to show clear and
convincing evidence of a strong possibility that trial
counsel was ineffective. Rule 3.11(B)(3)(b).
This standard is less demanding than Strickland, as
it is easier to show clear and convincing evidence of a
strong possibility that counsel was ineffective than to
show, by a preponderance of the evidence, that
counsel’s performance was both unreasonably deficient
and resulted in prejudice. When we grant an
evidentiary hearing under this standard, we do not find
that counsel was ineffective, but that Appellant has
shown a strong enough possibility that he should be
afforded a further opportunity to develop his claim.
When we deny a request for evidentiary hearing, we
necessarily find that Appellant has not shown defense
counsel to be ineffective under at least one of the two
required prongs of Strickland. Simpson v. State, 2010
OK CR 6, ¶ 47, 230 P.3d 888, 904.
Appellant claims that trial counsel’s conduct
amounted to ineffective assistance for several reasons.
First he claims that counsel was ineffective for failing
to memorialize the victim’s mother’s statements before
she changed her opinion about the validity of the
accusations and presenting evidence of her continued
contact with Appellant even after she presumably
changed her opinion and divorced Appellant. Next he
claims that counsel was ineffective for failing to object
to the victim’s hearsay statements as cumulative
evidence. He claims next that counsel was ineffective in
failing to object to prejudicial testimony and the

App. 4
hearsay evidence presented by a medical expert.
Lastly, Appellant claims counsel was ineffective in
falling to adequately advise him of his right to testify
or remain silent and in failing to prepare him for the
possibility of testifying.
After reviewing these claims, we find that trial
counsel’s actions did not fall below reasonable
standards of professional conduct. Appellant has not
shown that the strategy chosen by trial counsel was
deficient. Any objections that trial counsel might have
made to the complained of evidence would have been
properly overruled. Finally, we find that the motion for
evidentiary hearing does not show by clear and
convincing evidence a possibility that trial counsel was
ineffective.
Reviewing Appellant’s Proposition One and his
motion for evidentiary hearing under these standards,
we find that no relief is warranted. Proposition One
and the motion for evidentiary hearing are denied.
In Proposition Two Appellant argues the trial court
erred by improperly admitting hearsay testimony. The
admission of evidence lies within the sound discretion
of the trial court and, when the issue is properly
preserved for appellate review, we will not disturb the
trial court’s decision absent an abuse of discretion.
Pavatt v. State, 2007 OK CR 19, ¶ 42, 159 P.3d 272,
286. An abuse of discretion is a clearly erroneous
conclusion and judgment, contrary to the logic and
effect of the facts presented. Neloms v. State, 2012 OK
CR 7, ¶ 35, 274 P.3d 161, 170.

App. 5
In Proposition Two Appellant claims that the trial
court erred by allowing hearsay testimony pursuant to
12 O.S.Supp.2013, § 2803.1. The trial court held a
thorough hearing pursuant to § 2803.1 and ruled that
the hearsay was admissible. We find no abuse of
discretion in this ruling. Proposition Two is denied.
Appellant claims in Proposition Three that the trial
court improperly admitted testimony of the examining
doctor, the DHS worker, the forensic interviewer, and
L.W.’s mother that bolstered L.W.’s credibility.
An expert witness may not vouch for the
truthfulness or credibility of a witness. Bench v. State,
2018 OK CR 31, ¶ 90, 431 P.3d 929, 957. “Vouching”
occurs when a witness indicates a personal belief in
another witness’s credibility by implicitly indicating
that information not presented to the jury supports the
witness’s testimony. Id., see Nickell v. State, 1994 OK
CR 73, ¶ 7, 885 P.2d 670, 673.
Vouching only occurs if the jury could reasonably
believe that the witness is indicating a personal belief
in another witness’s credibility. Warner v. State, 2006
OK CR 40, ¶ 24, 144 P.3d 838, 860-61, overruled on
other grounds by Taylor v. State, 2018 OK CR 6, 419
P.3d 265.
First, regarding the medical expert’s opinion, an
expert opinion may embrace the ultimate issue as long
as it does not tell the jury what result to reach. Day v.
State, 2013 OK CR 8, ¶ 11 , 303 P.3d 291, 297. Expert
testimony generally tends to show that another witness
is telling the truth or not. Id. In this case, the expert
testimony incidentally corroborated the other evidence,

App. 6
but it did not tell jurors what result to reach. There is,
therefore, no error in the expert testimony.
Regarding the other witnesses, we find that
Appellant failed to object to their testimony, thus we
review for plain error. Nicholson v. State, 2018 OK CR
10, ¶ 18, 421 P.3d 890, 896-97. To obtain relief,
Appellant must now show that a plain or obvious error
affected the outcome of the proceeding. Hogan v. State,
2006 OK CR 19, ¶ 38, 139 P.3d 907, 923. The Court will
then correct plain error only where it seriously affects
the fairness, integrity, or public reputation of the
proceedings. Simpson v. State, 1994 OK CR 40, ¶ 30,
876 P.2d 690, 701. This Court will not grant relief
based on prosecutorial misconduct unless the State’s
misconduct is so flagrant that it rendered the trial or
sentences fundamentally unfair. Nicholson, 2018 OK
CR 10, ¶ 18, 421 P.3d at 896-97.
We find that the testimony was proper. It did not
improperly vouch for the victim, nor did it improperly
tell the jury what result to reach, thus there can be no
plain error.
Lastly, with regard to the introduction of the
recording of the forensic interview as cumulative,
Appellant admits there were no objections on this
ground. Title 12 O.S.2011, § 2403, provides that
relevant evidence “may be excluded if its probative
value is substantially outweighed by the danger of . . .
needless presentation of cumulative evidence.” Here,
the introduction of the recording was probative and its
probative value was not substantially outweighed by
the needless presentation of cumulative evidence.

App. 7
There is no plain error here. Appellant’s Proposition
Three is denied.
In Proposition Four Appellant claims the
prosecution improperly vouched for L.W. and called
Appellant a liar. None of the alleged misconduct was
objected to at trial, therefore, review will be for plain
error only as set forth above. The prosecutor’s
argument was in direct response to defense counsel’s
argument regarding the victim’s veracity. Further, the
prosecutor was merely comparing the victim’s
motivation to lie versus Appellant’s motivation to lie.
The prosecutor’s arguments can be described as proper
comments on the evidence during closing argument, or
proper comments in response to the arguments of
defense counsel. See Ball v. State, 2007 OK CR 42,
¶ 57, 173 P.3d 81, 95 (Counsel are allowed a liberal
freedom in their argument and inferences; reversal is
not required unless a defendant’s rights are affected).
The argument does not amount to plain error. This
proposition is denied.
Appellant argues in Proposition Five that the Child
Hearsay Statute is unconstitutional. Appellant did not
raise this issue below, therefore, we review for plain
error only, as defined above. Appellant concedes this
Court has previously determined the child hearsay
statute to be constitutional. Jones v. State, 1989 OK CR
66, ¶¶ 9-11, 781 P.2d 326, 328 (holding that the statute
neither violates the confrontation clause nor due
process); and Matter of W.D., 1985 OK 65, ¶11- 12, 709
P.2d 1037, 1042 (Holding that § 2803.1 does not violate
equal protection). We find no reason to revisit this
issue now. Proposition Five is denied.

App. 8
Finally, in Proposition Six, Appellant claims that
the accumulation of errors denied him a fair trial and
that he should be granted a new trial. We find that
there are no individual errors requiring relief. As we
find no error that was harmful to Appellant, there is no
accumulation of error to consider. Barnett v. State,
2011 OK CR 28, ¶ 34, 263 P.3d 959, 969. Proposition
Six is, therefore, denied.
DECISION
The judgment and sentence is AFFIRMED.
Appellant’s motion for evidentiary hearing is
DENIED. Pursuant to Rule 3.15, Rules of the
Oklahoma Court of Criminal Appeals, Title 22,
Ch. 18, App. (2019), the MANDATE is
ORDERED issued upon the delivery and filing
of this decision.
APPEAL FROM THE DISTRICT COURT OF
OKLAHOMA COUNTY THE HONORABLE
TIMOTHY R. HENDERSON, DISTRICT JUDGE
APPEARANCES AT TRIAL
DAVID D. SMITH
216 EAST EUFAULA
NORMAN, OK 73069
ELLIOTT C. CRAWFORD
903 N.W. 13TH STREET
OKLAHOMA CITY, OK 73106
ATTORNEYS FOR DEFENDANT

App. 9
RYAN STEPHENSON
KATHERINE BRANDON
ASST. DISTRICT ATTORNEYS
320 ROBERT S. KERR, STE. 505
OKLAHOMA CITY, OK 73102
ATTORNEYS FOR THE STATE
OPINION BY: LEWIS, P.J.
KUEHN, V.P.J.: Concur
LUMPKIN, J.: Concur in Results
HUDSON, J.: Concur
ROWLAND, J.: Concur
APPEARANCES ON APPEAL
ROBERT L. WYATT, IV
501 N. WALKER AVE., STE. 110
OKLAHOMA CITY, OK 73102
ATTORNEY FOR APPELLANT
MIKE HUNTER
ATTORNEY GENERAL
KEELEY L. MILLER
ASST. ATTORNEY GENERAL
313 N.E. 21ST ST.
OKLAHOMA CITY, OK 73105
ATTORNEYS FOR APPELLEE

